1

IN THE
SUPREME COURT OF THE UNITED STATES

Carline Curry

- PETITIONER

VS.
PRESIDENT JOE BIDEN AND VICE PRESIDENT KAMALIA HARRIS
CITY OF MANSFIELD ET AL - RESPONDENTS

& THE

PROOF OF SERVICE
__Carline Curry_, do swear or declare that on this date
(1_______ ,2021, as required by Supreme Court Rule 291 have served
enclosed
appended
pages FOR the WRIT OF CERTIORARI on each party to the
th
above proceeding or that party’s counsel, and On every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid, or
by delivery to a third-party commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Gregory Beck & Andrea K. Ziarko; Baker, Dublikar, Beck, Wiley and Mathews; 400
South Main Street; North Canton Ohio 44720, Elizabeth Preglor, Solicitor General
of the United States, Room 5616, Department of Justice, 950 Pennsylvania Ave.,
N.W., Washington, DC 20530-0001,Attorney General Dave Yost, 30 E. Broad Street;
14 th floor; Columbus, Ohio 4321, The United States Senate; 706 Hart Bldg,
Washington D.C. 20510, Senate, Senator Sherrod Brown, 801 W. Superior Ave.
#1400 Cleveland, Ohio 4413, Speaker of the House Nancy Pelosi; US House of
Representatives, U.S. Capital Building, Washington DC 20515; State of Ohio
Representative Mark Romanchuk, 77 S. Broad Street; Suite; 11th Floor, Columbus,
Ohio 43215,Justin Herdman; U.S. Attorney, 801 Superior Ave. Suite 400, Cleveland,
Ohio 44113, Merrick Garland, United States Attorney General; U.S. Department of
Justice ; 950 Pennsylvania Ave. N. W. Washington, DC 20530-0001
Executed on

Qc*™?--- L-L

,20Jl/

(J

JL
Signature

f/io ' '5>J2

2

Please take out pages 18 & 19 and replace with the revised pages 18 & 19
Please take out pages 32 to Appendix A and replace them with the revised pages
32 to Appendix A: Pages 32, 33,34,35,36,37,38 & Appendix A
Please add to Appendix A Exhibits pages A13, A13A1,13A2, A14, A15, & A16

l

